   March 13, 2002




Acquisition

Pilot Program to Treat Procurements
of Certain Commercial Services as
Commercial Items
(D-2002-061)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DCADS                 Defense Contract Action Data System
FAR                   Federal Acquisition Regulation
FORCSCOM              Forces Command
MEDCOM                Medical Command
TRADOC                Training and Doctrine Command
                       Office of the Inspector General, DoD
Report No. D-2002-061                                                   March 13, 2002
  (Project No. D2001CH-0137.000)

              Pilot Program to Treat Procurements of Certain
                 Commercial Services as Commercial Items

                                   Executive Summary

Introduction. The National Defense Authorization Act for FY 2000, Public
Law 106-65 (the Act), section 814, “Pilot Program for Commercial Services,” permits
the Secretary of Defense to initiate a pilot program to treat procurements of certain
services as commercial items. It covers the following services:

              •   utilities and housekeeping services,
              •   education and training services, and
              •   medical services.

The DoD awarded about $6.38 billion in contracts for these types of services during
FY 2000. The Act requires the Secretary of Defense, after the third full fiscal year of
the pilot program, to report on the impact of the pilot program on the prices paid for
commercial services covered by the program; the quality and timeliness of services
provided; and the extent of competition for the contracts.

Objectives. The overall objective of the audit was to review progress on
implementation of the pilot program established by the Act. A secondary objective was
to review the management control program as it related to the overall objective.

Results. Only two DoD Components, the Army and Washington Headquarters
Services, are participating in the pilot program. The two participating components
were in the program planning stages and had not awarded contracts under the pilot
program. As a result of the low participation rate, Congress may not obtain the
expected information from the pilot program. For details of the audit results, see the
Finding section of the report.

The management controls that we reviewed were effective in that no material
management control weakness was identified. See Appendix A for details on the
management control program.

Management Comments. We provided a draft of this report on January 15, 2002. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                              i

Introduction
     Background                                               1
     Objectives                                               2

Finding
     Implementation of the Pilot Program                      3

Appendixes
     A. Audit Process
          Scope and Methodology                                6
          Management Control Program Review                    6
     B. Prior Coverage                                         8
     C. Data on Contract Actions for Pilot Program Services    9
     D. Report Distribution                                   18
Background
    FY 2000 Pilot Program for Commercial Services. The National Defense
    Authorization Act for FY 2000, Public Law 106-65 (the Act), section 814,
    “Pilot Program for Commercial Services,” permits the Secretary of Defense to
    initiate a program to treat procurements of some services as commercial items.
    It covers the following services:

           •   utilities and housekeeping services,
           •   education and training services, and
           •   medical services.

    The Secretary was to establish the period of the pilot program, not to exceed
    5 years. The Act requires the Secretary of Defense to submit a report, no later
    than 90 days after the end of the third full fiscal year of the program, on the
    impact of the pilot program on the services covered. Specifically, the report
    must detail:

           •   prices paid for the services,
           •   the quality and timeliness of services, and
           •   the extent of competition for the service contracts.

    The Act describes the purpose of the pilot program as a test of the concept of
    treating certain classes of commercial services as commercial items.
    Specifically, the program is to generate data for future determinations of
    whether other classes of services should be treated as commercial items.

    Responsibility for implementing the program was delegated to the Under
    Secretary of Defense for Acquisition, Technology, and Logistics.

    FY 2001 Legislation on Service Contracting. The FY 2001 National Defense
    Authorization Act, Public Law 106-398, section 821, “Improvements in
    Procurement of Services,” expands the possibility of procuring services as
    commercial items. It establishes a preference for performance-based contracting
    for services and allows DoD to award any applicable performance-based
    contract as a commercial item, under Federal Acquisition Regulation (FAR)
    part 12, “Acquisition of Commercial Items,” if:

           •   the contract or task order is valued at $5 million or less;

           •   the contract or task order sets forth specifically each task to be
               performed and (1) defines each task in measurable, mission-related
               terms, (2) identifies specific end products or output, and (3) has a
               firm fixed price; and

           •   the source of the services provides similar services
               contemporaneously to the general public under similar terms and
               conditions.

    The Department has not made any awards under the pilot program. However,
    during FY 2000, DoD awarded about $1.14 billion in contracts for the types of
    services designated in the pilot program as commercial items. This was about


                                         1
     18 percent of the approximately $6.38 billion total contracts that DoD awarded
     for such services during the fiscal year. Detailed information on the value of
     the contracts awarded for these services is presented in Appendix C.

     Subsequent OSD Memorandum. The Under Secretary of Defense for
     Acquisition, Technology, and Logistics issued a memorandum to DoD
     Components, entitled “Commercial Acquisitions,” on January 5, 2001. The
     memorandum addresses overcoming obstacles to acquiring commercial items,
     provides clarification to FAR part 12, and develops specific goals.

             •   By the end of FY 2005, each Military Department and Defense
                 agency is to double the dollar value of FAR part 12 contract actions
                 awarded in 1999.

             •   By the end of FY 2005, each Service and Defense agency should try
                 to increase the percentage of FAR part 12 contract actions awarded
                 to 50 percent of all actions awarded.

     However, the goal of increasing FAR part 12 actions is to be balanced with the
     objectives of increasing competition, achieving access to leading edge
     technologies, and achieving access to non-defense business segments.

Objectives
     The overall objective of the audit was to review progress on implementation of
     the pilot program established by the Act. A secondary objective was to review
     the management control program as it related to the overall objective. See
     Appendix A for a discussion of the audit scope and methodology and the review
     of the management control program. See Appendix B for prior audit coverage
     related to the audit objectives.




                                          2
            Implementation of the Pilot Program
            Only two DoD Components are participating in the pilot program, and
            these Components were in the planning stages and had not awarded any
            contracts under the program. Other Components have not participated
            in the pilot program because both the legislation itself and the Office of
            the Under Secretary of Defense for Acquisition, Technology, and
            Logistics presented it as a voluntary option. Additionally, the FAR
            already permitted procurement of commercial services as commercial
            items, and Components did not consider the program relevant or useful
            to their purposes. As a result of the low level of participation, Congress
            may not obtain the expected information from the pilot program.

Presentation to DoD Components
     Neither the legislation nor the implementing guidance to DoD Components
     mandates participation in the pilot program. Section 814 of the FY 2000 DoD
     Authorization Act states that the Secretary of Defense may carry out a pilot
     program to treat procurements of commercial services as commercial items. On
     May 25, 2000, to implement this legislation, the Under Secretary of Defense for
     Acquisition, Technology, and Logistics issued a memorandum to DoD
     Components, “Pilot Program for Commercial Services.” The memorandum
     requests each organization to select and conduct candidate commercial item
     procurement pilot programs within the stated categories. The memorandum also
     provides specific guidance on the conduct and reporting of the pilot program.
     No additional reporting is due from Components until 60 days after the end date
     of the program--September 30, 2003.

     Staff in the Office of the Director for Acquisition Initiatives stated that they
     verbally presented the pilot program as an initiative in which the Components
     could participate if they believed it was useful. They further stated that the
     subsequent section 821 of the FY 2001 Defense Authorization had overtaken the
     importance of the pilot program. Specifically, section 821, “Improvements in
     Procurement of Services,” better addressed what they perceived as the intent of
     the program, to increase commercial contracting. The Office of the Director for
     Acquisition Initiatives was therefore not monitoring the progress of the pilot
     program.

Existing Guidance on Contracting for Services
     Government contracting officers were not previously prohibited from procuring
     commercial services as commercial items. FAR part 12 is applicable for the
     acquisition of supplies or services. DoD has not made any awards under the
     pilot program. However, during FY 2000, DoD awarded about $1.14 billion in
     contracts for the designated pilot program services as commercial items. This
     was about 18 percent of the approximately $6.38 billion that DoD awarded for
     such service contracts during the fiscal year.




                                         3
Participation of DoD Components
    The Army and Washington Headquarters Services elected to participate in the
    pilot program. We obtained data from the Defense Contract Action Data
    System (DCADS) on procurement actions for utilities and housekeeping,
    medical services, and education and training for FY 2000 and October through
    May of FY 2001. Based on the FY 2001 data, we contacted or visited
    Components that had contracted significantly for these types of services, in
    addition to the two Components actually participating. Detailed results follow.

    Army. The Assistant Secretary of the Army for Acquisition, Logistics, and
    Technology implemented the pilot program through a July 3, 2000,
    memorandum, “Services as Commercial Items Pilot (SCIP) Program.” The
    guidance directs three of its major commands to participate. These are:

           •   Forces Command (FORSCOM) for utilities and housekeeping,

           •   Training and Doctrine Command (TRADOC) for education and
               training, and

           •   Medical Command (MEDCOM) for medical services.

    All three major commands had submitted proposed contracts for the pilot
    program and some proposed metrics for the final reporting. The general idea is
    that existing contracts were not awarded commercially and would provide
    baseline data. The Army would award other contracts commercially for
    comparison with the baseline data.

    We visited FORSCOM headquarters, TRADOC headquarters, and one of the
    applicable TRADOC contracting activities. We communicated with MEDCOM
    through video teleconferencing and a conference call. Because none of the
    replacement contracts had been awarded, we had no results to evaluate. We
    noted and informed TRADOC staff that one of the proposed TRADOC contracts
    was not appropriate for the pilot program. The contract was originally awarded
    commercially and was not going to be replaced with another contract upon
    expiration. TRADOC staff concurred.

    For the MEDCOM contract that was closest to being replaced, it appears that
    awarding the replacement contract commercially will have little effect on the
    three measures of the pilot program results–-prices paid, quality and timeliness
    of services, and extent of competition. Therefore, although the contract
    technically meets the requirements of the pilot program, it may not have been
    the best choice. We discussed the contract, which procured dental services,
    with MEDCOM staff and examined the draft solicitation. The current contract
    is a small business set-aside, and the replacement contract will be awarded to the
    same Indian tribe as the original contract, only now in a joint venture with a
    large business. The same joint venture would probably be awarded the contract
    if it was not considered commercial. Additionally, prices are not to be
    negotiated in accordance with commercial practice, that is based on dental
    procedures performed, but based on hourly rates as in the original contract.
    MEDCOM staff stated that they did not see any significant change because of
    awarding the contract commercially.


                                        4
   Navy. The Navy has not implemented the program, but Navy staff stated they
   would discuss implementation at the next quarterly meeting of the Navy
   Contracting Council.

   Air Force. Air Force staff stated that they already purchase commercial
   services as commercial items and that they perceived the pilot program as
   voluntary.

   Washington Headquarters Services. Washington Headquarters Services has
   identified one contract for the pilot program. The new, commercially awarded
   replacement contract was to be awarded October 1, 2001. However, subsequent
   to our visit, award of the contract was delayed until April 1, 2002, in order to
   revise the work statement to make it performance based. Washington
   Headquarters Services still plans to use this contract for the pilot program.

   Defense Logistics Agency. Although the Defense Logistics Agency had
   developed an implementation plan for the pilot program, the agency did not
   intend to use the plan or participate in the program. Agency staff stated that
   they did not perceive the program as providing any new benefit.

   Tri-Care Management Agency. Agency staff were not aware of the pilot
   program.

   National Imagery and Mapping Agency. Agency staff stated that they would
   not initiate the pilot program unless they were directed to do so. They
   perceived the program as adding excessive paperwork for no benefit.

   Defense Intelligence Agency. Agency staff told us that the agency does little
   contracting in the three areas and that the pilot program does not appear to offer
   any benefits. They have not implemented the program.

Summary
   Participation in the pilot program was not mandatory, and regulations already
   permitted DoD Components to procure services as commercial items.
   Consequently, the level of participation in the pilot program is very low.
   Because of the low level of participation, Congress may not obtain the desired
   data on whether other classes of services should be treated as commercial items.
   Those Components that are participating are only in the early stages of the
   program, and we have no significant results to report. Because the pilot
   program is not mandatory, and it is too early to expect results from the
   participating Components, this report makes no recommendations.




                                        5
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We met with staff in the Office of the Director for
    Acquisition Initiatives to identify participants in the pilot program. We also
    reviewed DCADS data for FY 2000 and October through May of FY 2001 to
    determine DoD Components that contracted for the types of services covered in
    the pilot program. For all four Services and five other DoD Components that
    have a significant number of contracts, we interviewed procurement managers
    and other staff concerning the extent of participation in the pilot program, the
    perceived benefits of participation, or the reasons for non-participation. For the
    participating Components, the Army and Washington Headquarters Services, we
    reviewed related plans and guidance and the contracts designated for the
    program.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the DoD Contract Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data
    contained in DCADS to identify DoD Components that contract for the types of
    services covered in the pilot program and to determine overall levels of
    commercial contracting for these types of services. DCADS is maintained by
    the Directorate for Information, Operations, and Reports, Washington
    Headquarters Services. Inspector General, DoD, Report No. D-2001-061,
    “Waivers of Requirement for Contractors to Provide Cost or Pricing Data,”
    February 28, 2001, concludes that the information on cost or pricing data in
    DCADS was inaccurate and misleading. However, we concluded that the
    contract numbers, contracting activity codes, and Federal supply codes on the
    contracts in the computer-processed data were sufficiently accurate to identify
    the major Components contracting for the types of services covered. We are
    presenting the figures in Appendix C as background only–-they do not affect the
    conclusions of this audit report.

    Audit Type, Dates, and Standards. We performed this program audit from
    July 2001 through November 2001 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a




                                        6
comprehensive system of management controls that provides reasonable
assurance that programs are operating as intended and to evaluate the adequacy
of the controls.

Scope of the Review of the Management Control Program. We reviewed the
adequacy of DoD, Army, and Washington Headquarters Services controls over
the pilot program. Specifically, we reviewed the methods of notifying potential
participants of the program and of monitoring progress. Because we did not
identify a material weakness, we did not assess management’s self-evaluation.

Adequacy of Management Controls. Management controls were adequate in
that we identified no material management control weaknesses.




                                   7
Appendix B. Prior Coverage

General Accounting Office
    General Accounting Office (GAO), Report No. NSIAD-99-90, “DOD Pricing
    of Commercial Items Needs Continued Emphasis,” June 1999

    General Accounting Office (GAO), Report No. NSIAD-98-81, “Implementation
    of Key Aspects of the Federal Acquisition Streamlining Act of 1994,”
    March 1998

    General Accounting Office (GAO), Report No. NSIAD-96-53, “Military-
    Commercial Pilot Program Offers Benefits but Faces Challenges,” June 1996

Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-189, “Multiple Award Contracts
    for Services,” September 30, 2001

    Inspector General, DoD, Report No. D-2001-061, “Waivers of Requirement for
    Contractors to Provide Cost or Pricing Data,” February 28, 2001

    Inspector General, DoD, Report No. D-2000-192, “Results of the Defense
    Logistics Agency Strategic Supplier Alliance for Catalog Items,” September 29,
    2000

    Inspector General, DoD, Report No. D-2000-180, “Commercial Contract for
    Total Logistics Support of Aircraft Auxiliary Power Units,” August 31, 2000

    Inspector General, DoD, Report No. D-2000-098, “Spare Parts and Logistics
    Support Procured on a Virtual Prime Vendor Contract,” June 14, 2000




                                       8
Appendix C. Data on Contract Actions for Pilot
            Program Services

Figure C-1. Medical Services-Total Dollar Amount for Contracts Awarded
Commercially Compared to Total Overall Dollar Amount for all Contracts
Including Those Awarded Commercially1

                  1 .80
                                                                                            C om m erc ial
                                                                                            N on-C om m erc ial
                  1 .60



                  1 .40



                  1 .20



                  1 .00
     D ollars
    (billion s)
                  0 .80



                  0 .60



                  0 .40



                  0 .20



                  0 .00



                  -0.20
                           Q1   Q2   Q3   Q4     Q1   Q2   Q3    Q4            Q1   Q2    Q3   Q4             Q1   Q2
                          1998 1998 1998 1998   1999 1999 19 99 1999          2000 20 00 2000 2000           2001 2001

                                                     F is c a l Y e a r Q u a rte rs



B.3.10, spreadsheet “Q”(incomplete 11-21




1
    Source: DCADS. Information is unaudited and is presented as background only. Accuracy of the data
    does not affect the conclusions of this report.



                                                               9
Figure C-2. Utilities and Housekeeping-Total Dollar Amount for Contracts
Awarded Commercially Compared to Total Overall Dollar Amount for all
Contracts Including Those Awarded Commercially2



                          1 .4 0
                                                                                                                   C o m m e rc ia l
                                                                                                                   N o n -C o m m e rc ia l

                          1 .2 0




                          1 .0 0




                          0 .8 0

          D o lla rs
         (b illio n s )

                          0 .6 0




                          0 .4 0




                          0 .2 0




                          0 .0 0
                                    Q1   Q2     Q3   Q4     Q1   Q2       Q3       Q4              Q1     Q2   Q3   Q4             Q1   Q2
                                   1998 1998   1998 1998   1999 1999 1999 1999                    2000   2000 2000 2000           2001 2001
                                                                  F is c a l Y e a r Q u a rte rs




2
    Source: DCADS. Information is unaudited and is presented as background only. Accuracy of the data
    does not affect the conclusions of this report.



                                                                 10
             Figure C-3. Training and Education-Total Dollar Amount for Contracts Awarded
             Commercially Compared to Total Overall Dollar Amount for all Contracts
             Including Those Awarded Commercially3


             0.40
                                                                                                               Commercial
                                                                                                               Non-Commercial
             0.35



             0.30



             0.25
 Dollars
(billions)

             0.20



             0.15



             0.10



             0.05



             0.00
                       Q1     Q2     Q3     Q4       Q1     Q2      Q3     Q4             Q1     Q2     Q3     Q4        Q1      Q2
                      1998   1998   1998   1998     1999   1999    1999   1999           2000   2000   2000   2000      2001    2001
                                                                  Fiscal Year Quarters




             3
                 Source: DCADS. Information is unaudited and is presented as background only. Accuracy of the data
                 does not affect the conclusions of this report.


                                                                   11
Figure C-4. Medical Services-Total Contracting Dollars Awarded for FY 20004




                                                                                          Army
                                                                                          Navy
                                                                                          Air Force
                                                                                          Other DoD
                                       $120,591,699         $10,861,770




                   $780,706,845




                                                                                     $1,369,534,101




B.3.5, spreadsheet “Numbers”




4
    Source: DCADS. Information is unaudited and is presented as background only. Accuracy of the data
    does not affect the conclusions of this report.



                                                   12
Figure C-5. Utilities and Housekeeping-Total Contracting Dollars Awarded for
FY 20005




                                                                                 Army
                                                                                 Navy
                                                                                 Air Force
                                                                                 Other DoD

                                                                  $703,220,876




         $1,149,886,024




                                                                          $1,067,235,352

                              $270,330,185




B.3.5, spreadsheet “Numbers”




5
    Source: DCADS. Information is unaudited and is presented as background only. Accuracy of the data
    does not affect the conclusions of this report.



                                                   13
Figure C-6. Training and Education-Total Contracting Dollars Awarded for
FY 20006




                                                                                                   Army
                                                                                                   Navy
                                                                                                   Air Force
                                                                                                   Other DoD




                                                                                                    $285,398,202
                     $389,569,907




                                                                                    $168,273,964
                                                $60,744,917




3.5, spreadsheet “RU”




6
    Source: DCADS. Information is unaudited and is presented as background only. Accuracy of the data
    does not affect the conclusions of this report.



                                                   14
     Table C-1. Federal Supply Codes for Medicial Services-Contract Actions
                               Awarded FY 20007


    FSC                                                Awarded        Not Awarded
    Code       Type of Service                      Commercially      Commercially              Total

    Q101       Dependent Medicare Services      $        752,077 $       200,211 $       952,288
    Q201       General Health Care Services          505,718,035   1,361,846,174   1,867,564,209
    Q301       Laboratory Testing Services             9,480,745       8,221,508      17,702,253
    Q401       Nursing Services                        8,046,745      25,591,639      33,638,384
    Q402       Nursing Home Care Contracts               151,080               0         151,080
    Q403       Evaluation and Screening                   71,762         182,761         254,523
    Q501       Anesthesiology Services                 1,120,747         585,368       1,706,115
    Q502       Cardio-Vascular Services                  -18,640         731,940         713,300
    Q503       Dentistry Services                        950,105      43,824,319      44,774,424
    Q504       Dermatology Services                            0          79,456          79,456
    Q505       Gastroenterology Services                 220,488               0         220,488
    Q507       Gynecology                              1,657,122       2,081,142       3,738,264
    Q508       Hematology Services                        28,500               0          28,500
    Q509       Internal Medicine Services                661,275       1,075,382       1,736,657
    Q510       Neurology Services                        255,670               0         255,670
    Q511       Ophthalmology Services                     45,032         132,696         177,728
    Q512       Optometry Services                        210,206          37,440         247,646
    Q513       Orthopedic Services                        58,750         640,303         699,053
    Q514       Otolaryngology Services                   812,542               0         812,542
    Q515       Pathology Services                        270,431       2,407,666       2,678,097
    Q516       Pediatric Services                        284,410       9,821,634      10,106,044
    Q517       Pharmacology Services                   2,740,743       4,486,606       7,227,349
    Q518       Physical Medicine and                     781,101       1,187,589       1,968,690
                 Rehabilitation Services
    Q519       Psychiatry Services                       1,446,464          856,450        2,302,914
    Q521       Pulmonary Services                          259,400                0          259,400
    Q522       Radiology Services                        1,253,225        9,517,453       10,770,678
    Q523       Surgery Services                            276,180          929,251        1,205,431
    Q525       Urology Services                            495,720                0          495,720
    Q526       Medical/Psychiatric                       1,396,100                0        1,396,100
                 Consulation Services
    Q527       Nuclear Medicine                                0           532,232           532,232
    Q999       Other Medical Services                 21,463,964       245,835,216       267,299,180

                 Total Awarded                  $ 560,889,979        $1,720,804,436   $ 2,281,694,415

B.3.8, spreadsheet “New - Assembled – Medical”7



7
    Source: DCADS. Information is unaudited and is presented as background only. Accuracy of the data
    does not affect the conclusions of this report.



                                                    15
    Table C-2. Federal Supply Codes for Utilities and Housekeeping-Contract
                          Actions Awarded FY 20008



    FSC                                            Awarded          Not Awarded
    Code Type of Service                        Commercially        Commercially               Total

    S111 Gas Services                    $   5,694,736          $    103,130,410 $ 108,825,146
    S112 Electric Services                  12,470,252               678,413,423   690,883,675
    S113 Telephone and/or                   71,756,711               139,609,389   211,366,100
          Communications Services
    S114 Water Services                      4,312,390                94,180,363         98,492,753
    S119 Other Utilities                     8,724,885               157,251,082        165,975,967
    S201 Custodial-Janitorial Services     118,610,047               222,068,440        340,678,487
    S202 Fire Protection Services            1,988,202                 6,044,797          8,032,999
    S203 Food Services                      99,369,187               185,714,592        285,083,779
    S204 Fueling and Other Petroleum           368,000                14,845,103         15,213,103
           Excluding Storage
    S205 Trash/Garbage Collection Srvcs-    30,738,963                 77,783,899       108,522,862
           Incl Port San Svcs
    S206 Guard Services                     21,347,533                 75,464,153        96,811,686
    S207 Insect and Rodent Control           1,195,802                  4,715,626         5,911,428
    S208 Landscaping/Groundskeeping         52,295,283                 91,383,552       143,678,835
           Services
    S209 Laundry and Dry Cleaning           21,195,516                 26,120,493        47,316,009
    S211 Surveillance Services                 609,347                  5,089,025         5,698,372
    S212 Solid Fuel Handling Services          137,613                  1,088,704         1,226,317
    S214 Carpet Laying and Cleaning          2,431,567                  1,870,926         4,302,493
           Services
    S215 Warehousing and Storage             3,846,110                43,168,456         47,014,566
    S216 Facilities Operations Support      37,381,647               444,739,624        482,121,271
    S217 Interior Plantscaping                       0                    20,414             20,414
    S218 Snow Removal/Salt Services          1,321,577                   886,562          2,208,139
    S222 Waste Treatment and Storage         1,751,838                13,545,245         15,297,083
    S299 Other Housekeeping Services        31,285,555               274,705,398        305,990,953

                Total Awarded                  $ 528,832,761    $ 2,661,839,676 $ 3,190,672,437
                                                    8
B.3.8, spreadsheet "New - Assembled - S ”
B.3.8, spreadsheet “New – Assembled – U”9




8
    Source: DCADS. Information is unaudited and is presented as background only. Accuracy of the data
    does not affect the conclusions of this report.




                                                   16
     Table C-3. Federal Supply Codes for Training and Education-Contract
                          Actions Awarded FY 20009

FSC                                                      Awarded       Not Awarded
Code       Type of Service                            Commercially     Commercially               Total

U001       Lectures for Training                  $      1,337,140 $     12,829,707 $      14,166,847
U002       Personnel Testing                               176,924        4,210,232         4,387,156
U003       Reserve Training (Military)                     350,475        3,241,918         3,592,393
U004       Scientific and Management                       154,477        6,104,617         6,259,094
            Education
U005       Tuition, Registration, and                    5,868,432     107,493,593        113,362,025
            Membership Fees
U006       Vocational/Technical                          8,332,868      54,723,822         63,056,690
U008       Training/Curriculum Development               2,892,071      70,072,414         72,964,485
U009       Education Services                           18,347,286     167,136,263        185,483,549
U010       Certification and Accreditation                 615,994         566,159          1,182,153
            for Educational Institutions
U011       AIDS Training                                   223,850                0           223,850
U012       ADP Software, Equipment, and                  3,629,249        3,218,083         6,847,332
            Tele Training
U099       Other Education and Training                 10,468,223     421,993,193        432,461,416
            Services

                 Total Awarded                    $     52,396,989 $ 851,590,001 $ 903,986,990

B.3.8, spreadsheet “New – Assembled – U”10




9
    Source: Defense Contract Action Data System (DCADS). Information is unaudited and is presented as
    background only. Accuracy of the data does not affect the conclusions of this report.




                                                   17
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director for Acquisition Initiatives
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, Training and Doctrine Command
Commander, Forces Command
Commander, US Army Medical Command
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Systems Management College
Director, National Imagery and Mapping Agency
Director, National Security Agency
Director, Tricare Management Activity
Director, Washington Headquarters Services




                                          18
Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         19
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
Henry F. Kleinknecht
Kent E. Shaw
Tyler C. Apffel
Lawrence N. Heller
Catherine G. Annulis
Andrew D. Greene
Tracy L. Simmons
Stephanie N. Lay
Benita L. Holliman
Erica D. Kimbrough
Sonia Moore
